%

ATTACHMENT 9
%

A

1-10621

Document: 00515867800

Page: 1

Date Filed: 05/19/2021

©mteb States Court of Appeals
for tfje Jftftf) Circuit

United States Court of Appeals
Fifth Circuit

FILED

May 19, 2021

No. 20-10621
Summary Calendar

Lyle W. Cayce
Clerk

United States of America,
Plaintiff—Appellee,
vet^us
Ledaniel Vernell Russell,
Defendant—Appellant.

Appeal from the United States District Court
for the Northern District of Texas
USDC No. 4:19-CR-367-2

Before Davis, Stewart, and Dennis, Circuit Judges.
Per Curiam:*
Ledaniel Vernell Russell pleaded guilty to one count of conspiracy to
possess with intent to distribute a controlled substance, specifically 50 grams
or more of methamphetamine, and the district court sentenced him within
the advisory guidelines range to 155 months of imprisonment and a five-year

* Pursuant to 5th Circuit Rule 47.5, the court has determined that this
opinion should not be published and is not precedent except under the limited
circumstances set forth in 5th Circuit Rule 47.5.4.

Case: 20-10621

Document: 00515867800

Page: 2

Date Filed: 05/19/2021

No. 20-10621

term of supervised release. Russell challenges both the procedural and
substantive reasonableness of his sentence.
We review sentences for reasonableness in light of the sentencing
factors of 18 U.S.C. § 3553(a). Gall v. United States, 552 U.S. 38, 46, 49-50
(2007). Under the bifurcated review process of Gall, we first examine
whether the district court committed procedural error. Id. at 51. If the
sentence is procedurally reasonable, we then review it for substantive
reasonableness in light of the § 3553(a) factors. Id.
First, Russell argues that the district court imposed a procedurally
unreasonable sentence when it denied his “Motion for Downward Departure
Based on U.S.S.G. [§] 3B1.2 Mitigating Role.” He asserts that he was less
culpable than the average participant in the conspiracy, emphasizing that his
participation was limited to a single transaction, he neither planned nor
organized the criminal activity, and he had no decision-making authority in
the conspiracy.
To the extent Russell is appealing the denial of a motion for a
downward departure, we lack jurisdiction to review the challenge. See United
States v. Tuma, 738 F.3d 681, 691 (5th Cir. 2013). To the extent he is
challenging the denial of a mitigating role reduction under § 3B1.2, Russell
has failed to show that the district court clearly erred in denying him a role
adjustment. See United States v. Gomez-Valle, 828 F.3d 324, 327 (5th Cir.
2016). Russell’s involvement in various aspects of the enterprise, including
negotiations over the price of the methamphetamine and distribution of that
methamphetamine to his own customers, belies his claims that he lacked an
understanding of the scope and structure of the enterprise or the activities of
the others in the group or that his actions were peripheral to the goal of the
criminal conspiracy. See § 3B1.2, comment, (nn.3-4); United States v. BelloSanchez, 872 F.3d 260,264 (5th Cir. 2017); United States v. Castro, 843 F.3d

2

Case: 20-10621

Document: 00515867800

Page: 3

Date Filed: 05/19/2021

No. 20-10621

608, 613-14 (5th Cir. 2016). The district court’s conclusion that Russell
failed to show he played a substantially less culpable role than his coconspirators is plausible in light of this record. See Bello-Sanchez, 872 F.3d at
264.
Russell also argues that the district court imposed a substantively
unreasonable sentence because it did not adequately consider the § 3553(a)
sentencing factors. He emphasizes that the offense involved a single
transaction and argues that his role in the conspiracy was minimal and less
than the other participants. Russell also contends that the district court did
not address whether the methamphetamine Russell purchased was actual
methamphetamine or some type of mixture, a factor that seriously impacted
his sentencing exposure and creates unwarranted sentencing disparities.
Further, Russell asserts that the district court afforded too much weight to
Russell’s criminal history and ignored that his mental health issues
contributed to his prior criminal activity.
We review preserved challenges to the substantive reasonableness of
the sentence for an abuse of discretion, United States v. Diehl, 775 F.3d 714,
724 (5th Cir. 2015), and apply a rebuttable presumption of reasonableness to
properly calculated sentences that are within the guidelines sentencing range,
United States v. Candia, 454 F.3d 468, 473 (5th Cir. 2006). To rebut this
presumption, the defendant must show that “the sentence does not account
for a factor that should receive significant weight, it gives significant weight
to an irrelevant or improper factor, or it represents a clear error of judgment
in balancing sentencing factors.” United States v. Cooks, 589 F.3d 173,186
(5th Cir. 2009).
Russell’s argument that the district court failed to account for his
minimal role in the criminal conspiracy is unavailing, as the district court
heard that precise argument by Russell and informed him that it would

3

Case: 20-10621

Document: 00515867800

Page: 4

Date Filed: 05/19/2021

No. 20-10621

consider all evidence and arguments when fashioning a sentence. Equally
unavailing is Russell’s argument that the district court did not address the
purity of the methamphetamine when sentencing him. At sentencing, the
district court agreed with the Government’s assertion regarding an error in
the initial presentence report detailing the amount of actual
methamphetamine attributable to Russell, and the court specifically stated
that it had considered the amended presentence report when determining
Russell’s guidelines range of imprisonment. Moreover, even if the district
court had a policy disagreement with the Guidelines based upon sentencing
disparities in methamphetamine cases, it was not required to impose a lesser
sentence in Russell ’ s case because of it. See United States v. Malone, 828 F.3d
331,338-39 (5th Cir. 2016).
Additionally, Russell has not shown any abuse of discretion by the
district court in its consideration of his criminal history. See Diehl, 775 F.3d
at 724. The district court clearly stated that it would consider the arguments
by both parties about Russell’s criminal history when sentencing him.
Further, contrary to Russell’s contention, the district court was aware of his
mental health struggles given its adoption of the presentence report’s factual
findings, which detailed those struggles, and its imposition of mental health
treatment as a condition of supervised release.
In light of the foregoing, Russell has shown no error related to the
substantive reasonableness of his sentence. See Diehl, 775 F.3d at 724; Cooks,
589 F.3d at 186. The judgment of the district court is AFFIRMED.

4

\

%

ATTACHMENT 9
6

*

9

Case 4:19-cr-00367-A Document 259-1 Filed 02/18/20

Page 3 of 25 PagelD 514

PART A. THE OFFENSE
Chargefsl and Convictionfsl
1.

On October 11, 2019, a Criminal Complaint was filed in the Northern District of Texas,
Fort Worth Division, charging defendant Ledaniel Vernell Russell (Russell) and others
with violating 21 §§ U.S.C. 846 & 841(a)(1) & (b)(1)(B).

2.

On October 24, 2019, Russell was arrested, without incident, by agents with the Drug
Enforcement Administration (DEA), pursuant to a warrant issued in this case. On
October 25,2019, Russell was brought before U.S. Magistrate Judge Jeffrey L. Cureton in
Fort Worth for an initial appearance. He was ordered temporarily detained pending
preliminary and detention hearings, which occurred on October 30, 2019. During the
hearings, Magistrate Judge Cureton found probable cause existed to charge Russell, and
he was Ordered detained pending the disposition in this case.

3.

On December 11,2019, a one-count Indictment was filed in the Northern District of Texas,
Fort Worth Division, charging defendants Carol Monic Barajas (C. Barajas), Russell, and
Megan Starr Nelson (M.S. Nelson) with Conspiracy to Possess With Intent to Distribute
a Controlled Substance, in violation of 21 U.S.C. §§ 846 & 841(a)(1) & (b)(1)(A).
Specifically, in or before March 2019, and continuing until in and around October 2019,
the defendants, along with others known and unknown, did knowingly and intentionally
combine, conspire, confederate, and agree to possess with intent to distribute 50 grams or
more of inethamphetatnine, a Schedule II controlled substance.

4.

On December 27,2019, Russell appeared before Senior U.S. District Judge John McBryde
for arraignment, at which time he pleaded guilty to the one-count Indictment. There is no
Plea Agreement filed in this case. Judge McBryde ordered the preparation of a Presentence
Report by the U.S. Probation and Pretrial Services Office in Fort Worth. Sentencing was
scheduled for April 10, 2020, before Judge McBryde.
The Offense Conduct

5.

The following information was obtained through a review of the Indictment, Factual
Resume, and investigative materials provided by the DEA and Federal Bureau of
Investigation (FBI). In addition, the investigative material was verified and supplemented
through interviews with DEA Task Force Officer Steve Smith (TFO Smith). All of the
information contained herein is based on evidence considered to be reliable by this
probation officer.
Overview ofthe Conspiracy

6.

Beginning in 2019, the DEA and FBI began an investigation into the distribution of
kilogram and pound-quantities of methamphetamine in the Dallas/Fort Worth (DFW) area
by Juan Quezada (Quezada) (related case), after several arrested methamphetamine
distributors identified Quezada as their methamphetamine source of supply (SOS). The
investigation revealed the conduct outlined below.
3

Case 4:19-cr-00367-A Document 259-1 Filed 02/18/20

Page 4 of 25 PagelD 515

7.

Quezada received kilogram and pound-quantities of methamphetamine from a Mexicobased SOS, which he then distributed to various customers, including Russell and Marcus
Ray Nelson (M.R. Nelson) (related case), who, in turn, delivered to their own customers.
Quezada had several couriers who obtained and delivered methamphetamine, and collected
drug proceeds on his behalf, including Marco Barajas (M. Barajas) (related case).

8.

C. Barajas was identified as Quezada's girlfriend and was present during multiple drug
transactions in which Quezada received and distributed methamphetamine. Additionally,
C. Barajas coordinated drug transactions and directed couriers in obtaining a shipment of
methamphetamine from California.

9.

M.S. Nelson obtained her methamphetamine from Kingrasaphone, which was ultimately
supplied by Quezada.
The Investigation

10.

In 2019, several methamphetamine distributors were arrested and identified Quezada as
their methamphetamine SOS, which prompted an investigation into Quezada's distribution
activity. As part of their investigative techniques, agents utilized Pen Registers and Title
IH intercepts, as well as Global Positioning System (GPS) data, controlled drug purchases,
and surveillance.

11.

In April 2019, investigators met with a cooperating source (CS10 who identified Quezada
as CS Vs methamphetamine SOS. CS l-advised he/she began purchasing methamphetamine
directly from Quezada in February 2019, in which C. Barajas accompanied Quezada during
the drug transactions. Other times, M. Barajas delivered methamphetamine and collected
drug proceeds on behalf of Quezada.

12.

Based on the information provided by CS1, investigators began monitoring Quezada's
cellular phone. From June through August 2019, agents intercepted multiple calls between
Quezada, his Mexico-based SOS, and the codefendants, including Russell, that indicated
Quezada was involved in receiving multiple-pound quantities of methamphetamine from
Mexico, which he then distributed to customers in DFW and Missouri.'
Russell's Conduct

13.

Sometime in 2019, Russell was introduced to Quezada by M.R. Nelson. On July 12,2019,
agents intercepted a phone call between Quezada and Russell in which the following
conversation occurred:
Quezada: Hey, what's the ticket over there?
Russell: Three a zip.
Quezada: That's Peking expensive.
Russell: Okay.
Quezada: If you want to come down here and get you a little four pack and get it
going. Zip is 180.
Russell: All right, bro.
4

Case 4:19-cr-00367-A Document 259-1 Filed 02/18/20

©

Page 5 of 25 PagelD516

In this conversation, Russell informed Quezada he was paying $300 for one ounce, or a
vzip" of methamphetamine. Quezada advised Russell that was expensive and offered to
sell Russell four ounces of methamphetamine for $180, per ounce, to which Russell
agreed. A few minutes later, Quezada texted Russell with die location of two addresses:
3806 and 3807 Earl Street in Fort Worth. Based on these conversations, agents established
surveillance on both residences, and at 12:02 p.m., Russell was observed driving a Toyota
Tundra and parking near the residences. Quezada informed Russell he was not at the
residence yet, and Russell indicated he needed to leave to drop off his wife at an
appointment, and would return after. At 2:00 p.m., Russell sent a text message to Quezada
indicating he was on his way back to the residences. At 2:21 p.m., agents observed Russell
return to the residence driving the same vehicle. Quezada met Russell outside, and agents
witnessed Quezada remove a package from his vehicle and hand it to Russell. A
cooperating coconspirator confirmed that on this date, Quezada distributed 4 ounces, or
113.4 grams of methamphetamine to Russell.
On My 16, 2019, a phone call occurred between Quezada and M.R. Nelson in which
Quezada informed M.R. Nelson, "He took four zips four days ago." This conversation
corroborated toe events which occurred on July 12, 2019, in which Quezada distributed 4
ounces Of methamphetamine to Russell.

16.

As outlined in the Indictment, and stipulated to in the Factual Resume, Quezada personally
distributed methamphetamine to Russell and others, and Russell, in turn, distributed
methamphetamine to his customers. In this manner, Quezada and Russell conspired with
each other to possess more than 50 grams of methamphetamine with the intent to distribute
the substance.
Victim Impact

17.

This is a Title 21 offense and there is no identifiable victim other than society at large.
Adjustment for Obstruction of Justice

18.

The probation officer has no information indicating toe defendant impeded or obstructed
justice.
Adjustment for Acceptance of Responsibility
The defendant was interviewed on January 30,2020, in toe presence of his attorney. During
toe interview, toe defendant admitted toe facts he stipulated to in the Factual ResumC are
true, and he is guilty of this offense. Regarding his involvement in this offense, the
defendant stated, "This is something I will never get myself back into again. I love my
family too much to be in here. I apologize for being in toe wrong place."

20.

The defendant has clearly demonstrated acceptance of responsibility for his offense within
the meaning of USSG §3El.l(a). Two offense levels will be subtracted for acceptance of
responsibility. Furthermore, on January 2, 2020, Assistant U.S. Attorney Shawn Smith
filed a Notice Regarding Acceptance of Responsibility confirming toe defendant assisted
the government in the investigation or prosecution of his own misconduct by timely
5

Case 4:19-cr-00367-A Document 259-1 Filed 02/18/20

Page 6 of 25 PagelD517

notifying authorities of his intention to enter a plea of guilty, thereby permitting the
government to avoid preparing for trial. The timeliness of his notification to enter a plea of
guilty permitted die government and the Court to allocate their resources efficiently. One
additional offense level will be subtracted for acceptance of responsibility, for a total of 3
levels. USSG §3El.l(a) & (b).
Offense Level Computation
21.

(3)

(3

The offense of conviction concluded on July 12, 2019. The 2018 Guidelines Manual was
used to determine the defendant's offense level. USSG § IB 1.11.
Count 1: Conspiracy to Possess With Intent to Distribute a Controlled Substance
Base Offense Level: The base offense level for a violation of 21 U.S.C. §§ 846 &
841(a)(1) & (b)(1)(A) is found in USSG §2D1.1 of the guidelines. Pursuant to
USSG §2D1.1(a)(5), the base offense level is determined by using die Drug
Quantity Table set forth in Subsection (c). The defendant is accountable for 113.4
grams of methamphetamine. Pursuant to USSG §2D1.1(c)(8), if the offense
involved at least 50 grams but less than 200 grams of methamphetamine, the base
offense level is 24.

24

Specific Offense Characteristics: Pursuant to USSG §2D 1.1 (b)(5), if the offense
involved the importation of methamphetamine from listed chemicals that the
defendant knew were imported unlawfullyTand the defendant is not subject to a
mitigating role adjustment, increase by 2 levels. The. Tnp.thamphpitamitie the
defendant received from Quezada originated from Mexico. Therefore. 2 levels are
added.

+2

24.

Victim Related Adjustment: None.

0

25.

Adjustment for Role in the Offense: None.

0

26.

Adjustment for Obstruction of Justice: None.

0

27.

Adjusted Offense Level (Subtotal):

26

28.

Chapter Four Enhancement: None.

0

29.

Acceptance of Responsibility: The defendant admitted the facts he stipulated to in
the Factual Resumd are true and he is guilty of this offense. The defendant has
clearly demonstrated acceptance of responsibi lity for the offense. Accordingly, the
offense level is decreased by 2 levels. USSG §3El.l(a).

-2

Acceptance of Responsibility: The defendant has assisted authorities in the
investigation or prosecution of the defendant's own misconduct by timely notifying
authorities of the intention to enter a plea of guilty. Accordingly, the offense level
is decreased by 1 additional level. USSG §3El.l(b).

-1

30.

6

Case 4:19-cr-00367-A Document 259-1 Filed 02/18/20

31.

Page 7 of 25 PagelD 518

Total Offense Level:

23

PART B. THE DEFENDANT’S CRIMINAL HISTORY
32.

A federal, state, and local criminal records search was conducted using the National Crime
Information Center and Texas Crime Information Center (NCIC/TCICJ computerized
records. The following information was determined from this search, as well as from court
records and offense reports received from the arresting agencies.

33.

In calculating the Criminal history, the defendant's earliest offense date, including relevant
conduct, is July 12, 2019. USSG §4A1.2, comment, (n.l).
Juvenile Adindicationfsl

34.

None.
Adult Criminal Convictionfsl
Date of
Arrest

35.

2/1/2009
(Age 25)

Date Sentence
Imposed/Disposition

Conviction/Court
Non-Support
09DU-CR00575
Dunklin County
Circuit Court
Kennett, MO

8/12/2009: Plea
unknown. Placed on 2
years unsupervised
probation.
8/12/2011: Sentence
successfully terminated.

Guideline
4A1.2(c)(1)

Pts
0

The defendant was represented by counsel.
The arresting agency is unknown.
Court records revealed between February 1 and April 30, 2009, the defendant knowingly
failed to provide, without good cause, adequate support for Tanya Russell and Demonte
Russell, children from whom the defendant was legally obligated to provide such support.
36.

3/14/2009
(Age 26)

Fail to Obey Lawful
Order
080281333
Dunklin County
Circuit Court
Municipal Division
Kennett, MO

7/8/2009: Pleaded
guilty. Sentenced to 15
days imprisonment.

4A1.2(c)(1)

0

Attorney representation is unknown.
The Kennett, Missouri, Police Department (KPD) offense report was requested and not yet
received.
7
f
I.

ATTACHMENT 9
C.

%

ADDENDUM TO THE PRESENTENCE REPORT
UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF TEXAS
UNITED STATES V. LEDANIEL VERNELL RUSSELL, DKT. 0539 4:19-CR-367-A(02)
Judge: The Honorable John McBryde
The probation officer certifies that the Presentence Report, including any revision thereof, has been
disclosed to the defendant, defendant’s attorney, and counsel for the government, and that the
content of the Addendum has been communicated to counsel. All of the information contained
herein is based on evidence considered reliable by this probation officer. The Addendum fairly
states any objections they have made.
By the Government
On February 21, 2020, Assistant U.S. Attorney Shawn Smith, on behalf of the government, filed
one objection to the Presentence Report. The government's objection, and this officer's response,
are outlined below.
I.
OBJECTION TO PARAGRAPHS 22,31. AND 92: The government objected to the quantity of
methamphetamine the defendant was accountable for, stating the defendant should be held
accountable for methamphetamine (actual), and his base offense level should be 30.
RESPONSE: This officer accepts the government's objection by way of this Addendum. From
March 5 through July 31, 2019, agents seized eight samples of methamphetamine distributed by
Quezada. All of the samples had a purity level of 93 percent or higher, with the average purity
being 97.8 percent. The investigation revealed Quezada used the same SOS throughout his drug
distribution activity, with the exception of the July 9, 2019, shipment, which was provided by
Zavala-Quintana's source, and distributed by Quezada. Therefore, the average purity of the seized
methamphetamine will be applied to the historical methamphetamine Quezada distributed. As
reflected in paragraphs 13 and 14 of the Presentence Report, on July 12, 2019, the defendant
obtained 113.4 grams of methamphetamine from Quezada, and is therefore accountable for 110.9
grams of methamphetamine (actual! (113.4 grams multiplied by 97.8 percent). This correction
impacts the guideline calculations, as detailed by the italicized text below.
Offense Level Computation
21.

The offense of conviction concluded on July 12, 2019. The 2018 Guidelines Manual was
used to determine the defendant's offense level. USSG §1B1.11.
Count 1: Conspiracy to Possess With Intent to Distribute a Controlled Substance

22.

Base Offense Level: The base offense level for a violation of 21 U.S.C. §§ 846 &
841(a)(1) & (b)(1)(A) is found in USSG §2D1.1 of the guidelines. Pursuant to
USSG §2D 1.1 (a)(5), the base offense level is determined by using the Drug

Ledaniel Vemell Russell
Page 2

23.

Quantity Table set forth in Subsection (c). The defendant is accountable for 110.9
grams ofmethamphetamine actual). Pursuant to USSG §2D1.1(c)(5), if the offense
involved at least 50 grams but less than 150 grams of methamphetamine (actual),
the base offense level is 30.

30

Specific Offense Characteristics: Pursuant to USSG §2D 1.1 (b)(5), if the offense
involved the importation of methamphetamine from listed chemicals that the
defendant knew were imported unlawfully, and the defendant is not subject to a
mitigating role adjustment, increase by 2 levels. The methamphetamine the
defendant received from Quezada originated from Mexico. Therefore, 2 levels are
added.

+2

24.

Victim Related Adjustment: None.

0

25.

Adjustment for Role in the Offense: None.

0

26.

Adjustment for Obstruction of Justice: None.

0

27.

Adjusted Offense Level (Subtotal):

32

28.

Chapter Four Enhancement: None.

0

29.

Acceptance of Responsibility: The defendant admitted the facts he stipulated to in
the Factual Resume are true and he is guilty of this offense. The defendant has
clearly demonstrated acceptance of responsibility for the offense. Accordingly, the
offense level is decreased by 2 levels. USSG §3El.l(a).

-2

Acceptance of Responsibility: The defendant has assisted authorities in the
investigation or prosecution of the defendant's own misconduct by timely notifying
authorities of the intention to enter a plea of guilty. Accordingly, the offense level
is decreased by 1 additional level. USSG §3El.l(b).

-1

Total Offense Level:

29

30.

31.

Custody
91.

Statutory Provisions: The minimum term of imprisonment is 10 years, and the maximum
term of imprisonment is Life. 21 U.S.C. §§ 846 & 841(a)(1) & (b)(1)(A).

92.

Guideline Provisions: Based upon a Total Offense Level of 29 and a Criminal History
Category of VI, the Guideline Imprisonment Range is 151 to 188 months, which is in
Zone D of the Sentencing Table. The minimum term shall be satisfied by a sentence of
imprisonment. USSG §5Cl.l(f). [Deleted].

Ledaniel Vemell Russell
Page 3

Fines
101.

Guideline Provisions: The fine range for this offense is $30,000 to $10,000,000. If the
defendant is convicted under a statute authorizing (A) a maximum fine greater than
$500,000, or (B) a fine for each day of violation, the Court may impose a fine up to the
maximum authorized by the statute. USSG §§5E1.2(c)(3) and (c)(4).
By the Defendant

On February 24, 2020, attorney Henry J. Clark, Jr., on behalf of the defendant, filed three
objections to the Presentence Report. The defendant's objections, and this officer's responses, are
outlined below.
I.
OBJECTION TO PARAGRAPH 62: The defendant objected to the spelling of the town where
his daughter resides, stating it should be Beulah, Mississippi, and not Bude.
RESPONSE: This officer accepts this objection by way of this Addendum. This change does not
have any impact on the guideline calculations.
II.
OBJECTION TO PARAGRAPH 74: The defendant objected to the suggestion he attempted a
second suicide.
RESPONSE: This officer supports this paragraph as written. The medical records, received from
the Mississippi Department of Corrections, listed the defendant's 2008 drug overdose as
intentional.
III.
OBJECTION TO PARAGRAPH 86: The defendant clarified he was employed at Future Foams,
not "Future Phones," and he earned $10, per hour.
RESPONSE: This officer accepts this objection by way of this Addendum. This change does not
have any impact on the guideline calculations.
Additional Information
Since the disclosure of the Presentence Report, this officer has obtained additional information
regarding the defendant's criminal history. The information obtained is outlined below as indicated
by the italicized text.

Ledaniel Vemell Russell
Page 4

Adult Criminal Conviction^
Date of
Arrest
39.

7/27/2009
(Age 26)

Conviction/Court

Date Sentence
Imposed/Disposition

Assault
9/23/2009: Pleaded
080281823
guilty. Sentenced to a
Dunklin County
fine.
Circuit Court Municipal
Division
Kennett, MO

Guideline

Pts

4Al.l(c)

Attorney representation is unknown.
The KPD offense report revealed on July 22, 2009, officers were dispatched to a residence
in reference to a vehicle theft. Upon arrival, officers met with Latonya Dailey (Dailey) who
advised the defendant took her keysfrom her and stole her vehicle. The vehicle was located
in the parking lot, though not where Dailey parked it, and officers left the area. They were
called back to the residence thirty minutes later and Dailey advised after the officers left,
the defendant returned and "struck her in the head." The defendant was located a short
time later and arrested.

Respectfully submitted,

Y&

S. Probation Officer
817-900-1862

March 16, 2020
APPROVED:

7pSc^
Carol E. Foreman
Supervising U.S. Probation Officer
817-840-0744

1

0

%

ATTACHMENT 9
. D

m Ashworth
f H!6K SCHOOL * CO.LLEGt • cAntEf.

*f • : :

September 27, 2018
\
:i502334
kicky D enton ??51419-j 19
USP Pollack
PO Box 1000
^Air Base Rd
1467
p-ohack, L

x
*

To Whom It May Concern:

26, 2015.
Associate Degree programs Each course constitutes three semester hours of ere l - Students
five courses in each semester.
^ end of each semester and 20 courses to meet the
required
to
complete
a
semester
exam
at
tne
are
will be issued within 30 days cf the tuition
requipis^jigt graduation. This student's diploma
being-pSid'm full.
iihe'Asooiate Degree programs y ^hCCfitlmftJormTiisshrtVDEAQ^n^Washingfon, D.C.

•

Ccimhission of the Distance Education - CCl^ ,S ■ „ nationally recognized accrediting
The DSAC is listed by the U.S, Department of
Georgia Nonpublic
agehcy.. Ashworth College also meets the accr®dl^
^ informati0n please contact the school
P5st§e:dbiid;ixy Education Commission. If you need farther intormauon p

5tt»i24“7234:• A

■

-

Smgerely,

•> •

Karen Dugans
Education Specialist
,,v XtivJoO.
... ;pes

\
\

i
l

\

i

